                     CLOSEOUT FOR M95080033
     This case came to NSF on August 3, 1995, when NSF1s Deputy
Director received a letter from -       V    J                (the
complainant) of the. f                         The Deputy Director
referred the letter to the Assistant Director for Biological
Sciences for reply. O I G was informed of the case on August 11,
1995, when we received a message from Dr. James L. Edwards,
executive officer for the Directorate for Biological Sciences (the
executive officer).    He had noticed that the letter mentioned
misconduct, and he asked that we assess it.
      O I G examined the complainant's letter and discussed it with
him-!      The complainant alleged that adherents of a certain
scientific perspective were so single minded that they could not
see the merits of work in their discipline that derived from
perspectives other than their own. He further alleged that, as a
result, these scientists unreasonably gave low ratings to
meritorious proposals.
     O I G determined that these were not allegations of misconduct
in science. Reviewers are supposed to provide NSF with their
honest scientific evaluations of proposed projects, and there is no
allegation that the class of reviewers who were the subject of the
complaint did otherwise.
     We informed the executive officer and Dr. Judith Sunley,
Assistant to the Director, that we were closing the case. We
advised them that the complainant was raising concerns about
program management and that NSF should take whatever steps it
believed necessary to ensure that the programs in question were
weighing reviewer biases appropriately and funding the most
meritorious research.
     This inquiry is closed and no further action will be taken on
this case.




                           page 1 of 1
